                                CLOSEOUT FOR M-94030006

                                                        Program Manager




references in the "Bibliography" and "Biographical Sketch" as "in press" or "under review" that did not
actually exist.

        OIG determined that the subject's "Bibliography" and "Biographical Sketch" in her NSF
proposal listed 18 unique references for which she was an author or co-author. These 18 references
included 10 published articles and 3 articles listed as either "in press" or "accepted for publication." Of
the remaining five references, two were listed as "in progress," two were listed as "unpublished
manuscripts," and one was listed as a meetmg presentation.

        OIG confirmed that the 10 articles listed as published were all published prior to the subject's
submission of her NSF proposal. Further, the three articles listed as "in press" or "accepted for
publication" were all published no later than a year following the submission of the proposal. OIG was
unable to locate an abstract for the one meeting presentation referenced because the proposal's citation
was incomplete. We learned that not all meeting presentations in the subject's field result in published
abstracts. OIG also determined that it was a common practice in the subject's field to include
references to "unpublished manuscripts." The practice of listing a future publication as a reference and
indicating it as "in progress" does not obligate an author to complete the publication.

       OIG concluded that there was no substance to the allegation that the subject misrepresented
information in her proposal. This inquiry was closed and no hrther action will be taken.

cc:     Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                               Page 1 of 1
